r
No.

ffe
ss

J J. k

= 5?i®

IN THE
Supremo Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

SEP 2 0 2021
Krishna Mote, Petitioner

OFFICE OF THE CLERK

Vs.
United States of America-Respondents
( List of Parties)

Third Circuit Court of Appeals
( name of Court that Last ruled on Merits of my case.).

PETITION FOR WRIT OF CERTIORARI
Krishna Mote
Schuylkill Prison Camp P.O. Box 670
Minersville, Pa. 17954

(2)

RECEIVED
JUL 2 7 2021
OFFICE QF THE CLERK
SUPREME COURT, U.S.

QUESTIONS
(1) Whereas can a Court of Appeals implicate a statement by the
Middle District Court on assumption to rectify the Statement?

(2)Whereas does the fifth Amendment Due process of Law allow
Courts to change decisions to deny Petitions.

(3) Whereas When the District Court dismissed an indictment without
Prejudice, and re-indict the Petitioner in 2011 under a new act
( Fair Sentencing Act) and sentenced the Petitioner under a new
sentencing Guildline enhancement §2D1.1(B)(12) that didnot exist
during the alleged Covered Offence in 2007, Does this create
an Ex Post Facto Problem.

(1)

TABLE OF CONTENTS
Questions presented

(i)

List of Barties

(ii)

Table of Contents

(iii)

Table of Authorities

. (iiii)

Statement of Facts

. (iiiii)
(iiiiii)

Reasons for granting Writ
Index to Appendix ............

(iiiiiii)

•Appenddix-A

The Middle District Court Judgment and The Third Circuit
Court of Appeals Judgment.
Index to Appendix-B
Exhibits-A-B-G-, and Q
Jurisdiction

(iiiiiiii)

Certificate of Service

... (iiiiiiiii)

Certificate of Compliance

..............

Constitutional Provision and rule involved

(3)

(iiiiiiiiii)
(iiiiiiiiiii)

TABLE OF AUTHORITIES
Cases
United States v Jones 778 F.3d 375, 384 (1st. cir. 2015)
United States v Johnson 737 f.3d 444, 446 (6th. cir. 2013)
Peugh v United States 133 S. Ct. 2072 186 L. ed. 2d. 84 (2013)
United States v Cook 550 Fed. Appx. 265 (6th. cir. 2014)
United States v Jacobs 919 f.2d 10 (3rd. cir. 1990)
Bradley v School Bd of Richmond 416 US 696, 711 40 L. ed. 2d.
476, 94 S. Ct. 2006 (1974)

Federal Statutes
21 U.S.C.§846
21 U.S.C.§841(B)(l)(A)(iii)
21 U.S.C.§841(a)(l)
18 U.S.C.§2
18 U.S.C.§3161

(4)

The Fair Sentencing Act of 2010 sought to address among other things
conduct "generally described in 21 U.S.C.§856 which criminalized
the maintenance of apremises used for drug manufacturing or distribution
see United States v Jones 778 F.3d 375, 384 (1st cir. 2015). To this
end the act directed the Sentencing Commission to amend the United
States Sentencing Guidelines to add an enhancement for defendants
engaged in such activity see United States v Johnson 737 F.3d 444,446
(6th cir. 2013) The Commission added §2D1.1(B) (-12) for a two-level
increase for a defendant who maintained a premises for the purpose of
manufacturing or distributing a controlled substance for the enhancement
to apply. The 2011 version of the guidelines manual included lower
guidelines ranges for some crack cocaine offenses, but it also added
two new sentencing enhancements that didnot exist in the 2007. In
2011 the version of §2D1.1 two levels for the defendants use or threat
of violence §2D1.1(b)(2) and two levels for maintaining a premises for
the purpose of distribution a controlled substance §2D1.1(b)(12).
A District Court's decision to apply these sentencing enhancements,
there by increasing a defendant's sentence for an offense committed
before the enhancement took effect would create an Ex post Facto problem
see Peugh v United States 133, S. Ct. 2072, 186 L. ed. 2d. 84 (2013)
also see United States v Cook 550 Fed. Appx. 265 (6th. cir. 2014).
Citing United States v Jacobs 919 F.2d 10 3rd. cir. 1990. In Jacobs
an Opinion by Honorable Justice Cowen stated" the issue before us is
whether the District court should have applied the classification
statute in effect at the time of sentencing or the statute in effect
at the time the offense was committed, The general rule, as developed
at common law requires a Court to apply the law in effect at the time
it renders its decision, unless doing so would result in manifest injustice
or there is statutory direction or legislative history to the contrary.

(S)-2

r

see Bradley v School Bd of Richmond 416 US 696, 711 40 L. ed. 2d' 476
94 S. Ct. 2006 (1974). On April 4, 2007 the Petitioner was indicted
with co-conspirators (allegelly) on charges of conspiracy to distribute
50grams of crack cocaine and 500grams of powder cocaine. The Middle
District Court dismissed that indictment without prejudice, due to a
Speedy Trial violation. The Petitioner was charged under the statute
21 U.S.C.§841(b)(1)(a)(lii) (April 2007 indictment) In 2010 the Fair
Sentencing Act MODIFIED the statute 841(a)(1) that changed the effect
of lowering the lOO-lo-l crack-to-powder ratio to 18-to-l. And other
words 50grams of crack and 500grams of cocaine powder went from;lOyears
to life (under 841(b)(1)(a)(iii) to 5 to 40years. The District Court
was aware of this change, and so was the Petitioner Attorney who
submited the motion argueing a Speedy Trial violation. The plan was
for the District Cburt to grant the motion for a speedy trial violation
not because of the Due process of Law or to protect the. Petitioner's
Constitutional rights, but to re-indict the Petitioner under the Fair
Sentencing Act for the same alleged covered offence in 2007 but raise
the Quantity to 280grams of crack and 500 grams of powder to trigger
the lOyears to life, giving the Petitioner a Mandatory Life sentence.
■see United States v Dixon 648 F.3d 195 3rd. 2011. The Petitioner submited
his §2255 motion argueing that said action by the Middle District court
was an Ex Post Facto violation. The Government stated in his responds
to the Petitioner §2255 motion Quote"first, as noted above, Mote's
sentence in this case was not determined by the Fair Sentencing Act
or by the Sentencing Guidelines. He received a Mandatory Life sentence
Pursuant to 21 U.S.C. §841(a)(l) and (B)(1)(A) 846 and 851. see Appendix-B
exhibit-B. The Middle District Court agreed with the Government and
Denied the Petitioner §2255 and stated Quote" Thus the life sentence
was not the result of a finding that defendant was a career offender, nor

Court of Appeals made an unappropriate evaluation in judgment by covering
up the prejudicial actions of the Middle District Court.

-’(5)-5j

REASON FOR GRANTING WRIT OF CERTIORARI
The Middle District Court, and the Third Circuit Court of Appeals
denied the Petitioner Rights to Due Process of Law that was ordained
by the Founding Fathers for the citizens of the United States of America
under the fifth Amendment. On the record show that on November 10, 2014
the Government statedV that the Petitioner sentence was not determined by
the Fair Sentencing Act, and on December 29, 2014 the Middle District
Court denied the Petitioner §2255 and stated" the Fsa didnot affect
the Petitioner sentence. However when the Petitioner applied for the
First Step Act on November 6, 2019the Petitioner argued ;that he is
eligible for the First Step Act due to not being sentenced under the
Fair Sentencing Act. That motion was denied by the Middle District Court
On March 12,2020. in the District Court Order stated" the Petitioner
was already sentenced in accordance with the Fair sentencing Act. And
The Third circuit court of Appeals Affirmed. This is an example of
the

Court abuse of discretion, and the Petitioner Due process of

Law has been placed on a see-saw of injustice and Prejudice. The
Petitioner pray that this Honorable Court will look into this matter
and G.V.R. this action back down to the lower

Court to remove the

Prejudice, and to signify the integrity of the law.

(6)
\

(

IN THE
SUPREME COURT OF THE UNITED STATES

Krishna Mote
Petitioner

Vs
United States of America
Respondents

Petition for Writ of Certiorari

Appendix-A

I Krishna Mote state" that the following is enclosed, the judgment
of The Middle District Court, and The Third Circuit Court of Appeals
Judgment and En Bac.

Respe

lly Submited

Krishna Mote-683-77-067
Schuylkill Prison Camp-2
P.0. Box 670
Minersville Pa. 17954

(7)

